March 30, 2011

SYLVESTER BLACK
VICE PRESIDENT, WESTERN AREA OPERATIONS

SUBJECT: Audit Report – Retail Customer Service Operations Realignment
         in the Hawkeye District (Report Number MS-AR-11-002)

This report presents the results of our self-initiated audit of the U. S. Postal Service’s
delivery and retail customer service operations1 (Project Number 10RG031MS000). Our
objective was to determine whether the Postal Service can reduce retail customer
service costs by realigning delivery operations in the Hawkeye District. This audit
addresses operational risk. See Appendix A for additional information about this audit.

The combination of electronic diversion and the recent recession has led to an
unprecedented decline in mail volume and associated revenue.2 As a way to reduce
costs, management has initiated action to improve the efficiency of delivery and retail
customer service operations. For example, in 2008, the Lakeland District initiated the
Delivery Unit Optimization (DUO) Program.3 This program involves relocating carriers
from small delivery offices (fewer than 10 carrier routes) to nearby delivery offices that
have sufficient excess floor space to absorb these operations without changing existing
services. This allows certain units to eliminate unnecessary clerk positions from the
transferring locations. While implementation of the DUO Program is ongoing, Lakeland
District officials stated they have realized approximately $5.5 million in cost savings as
of September 2010.

Some offices have replicated the DUO initiative implemented in the Lakeland District.
To assure consistent implementation of the DUO Program nationwide, Headquarters
Delivery and Post Office Operations issued DUO Guidelines, Version 1.1, in December
2010. These guidelines establish standardized procedures to help administer the
activities of the program without changing existing services.




1
  Retail customer service operations (also referred to as Function 4) include customer service activities at post
offices, stations, and branches for automated, mechanized, manual, and post office box distribution of mail, post
office window, and vending equipment services and miscellaneous administrative and Computerized Forwarding
System operations.
2
  U.S. Postal Service, Assessment of U.S. Postal Service Future Business Model, page 2, November 2009.
3
  Previously referred to as the Delivery Unit Relocation (DUR) Program.
Retail Customer Service Operations Realignment                                                    MS-AR-11-002
 in the Hawkeye District


Conclusion

Opportunities exist for the Hawkeye District to improve operational efficiency and
reduce retail customer service costs by realigning delivery operations. We identified 65
small delivery offices that management can relocate to nearby delivery offices with
sufficient excess floor space to absorb their operations. We estimate that the proposed
realignment would allow the Hawkeye District to reduce retail customer service costs by
between $1.7 million and $3.2 million a year over the next 10 years. We classify this
monetary impact as funds put to better use.4 See Appendix D for our monetary impact
calculation.

Opportunities Exist to Reduce Retail Customer Service Costs by Realigning
Delivery Operations

The Hawkeye District has not fully realigned delivery and retail customer service
operations in response to reductions in the workload caused by declining mail volume.
As shown in Chart 1, the district’s customer service mail volumes have declined by
approximately 35.4 percent since 2007; however, its network of delivery facilities has
declined only 4.3 percent.


                        Chart 1: Customer Service Mail Volume and
                         Delivery Facilities in the Hawkeye District
                       0.0%
                              0   0
                                           -1.6%
                      -5.0%                           -2.3%
                                                                -4.3%
             P       -10.0%
             e
             r       -15.0%
                 C
             c
                 h                       -15.9%                                  Number of Delivery
             e                                                                   Facilities
                 a   -20.0%
             n
                 n                                                               Customer Service Mail
             t
                 g   -25.0%                                                      Volume
             a
                 e
             g
                     -30.0%
             e
                                                    -30.4%
                     -35.0%
                                                                -35.4%
                     -40.0%
                                  2007       2008        2009            2010


Management has consolidated some facilities to improve operational efficiency and
reduce retail customer service costs. However, they have not conducted a

4
    Funds the Postal Service could use efficiently by implementing recommended actions.


                                                          2
Retail Customer Service Operations Realignment                               MS-AR-11-002
 in the Hawkeye District


comprehensive district-wide review to evaluate opportunities to reduce retail customer
service costs by realigning delivery operations.

There are 843 delivery offices in the Hawkeye District, 486 of which support small
delivery offices with fewer than 10 carrier routes each. We analyzed information in
Postal Service databases and identified 65 small delivery offices that management can
relocate to nearby delivery offices with sufficient excess floor space to absorb their
operations. See Appendix C for a list of these 65 offices.

This proposed realignment would relocate 215 carrier routes and provide management
the opportunity to eliminate 94 clerk positions that support carriers at the relocated
facilities. Management could eliminate the clerk positions through attrition or the
affected employees could fill job vacancies at other facilities. See Appendix B for our
detailed analysis of this topic.

We recommend the vice president, Western Area Operations, require the manager,
Hawkeye District, to:

1. Explore opportunities to reduce retail customer service costs by realigning delivery
   operations district-wide.

Management’s Comments

Management agreed with our findings, recommendation, and $25.8 million of monetary
impact in funds put to better use. The district’s Change, Discontinuance, and
Suspension coordinator will work to realign Customer Service operations identified on
the U.S. Postal Service Office of Inspector General (OIG) suggested list throughout
fiscal years (FY) 2011 and 2012. Management plans to explore opportunities to realign
75 percent of the Customer Service operations identified on the OIG suggested list by
December 2012. See Appendix E for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to our recommendation, and
management’s corrective actions should resolve the issues identified in the report.




                                                 3
Retail Customer Service Operations Realignment                              MS-AR-11-002
 in the Hawkeye District



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Janet Sorensen, director, Sales
and Service, or me at 703-248-2100.


   E-Signed by Darrell E. Benjamin, Jr
   VERIFY authenticity with ApproveIt

Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Revenue and Systems

Attachments

cc: Megan J. Brennan
    Dean J. Granholm
    Gail M. Duba
    Corporate Audit and Response Management




                                                 4
Retail Customer Service Operations Realignment                                                         MS-AR-11-002
 in the Hawkeye District


                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The U.S. Postal Service is facing significant financial challenges as mail volume has
declined by 12.8 percent in FY 2009 and 3.5 percent in FY 2010. The Postal Service
reported losses of $3.8 billion and $8.5 billion in FYs 2009 and 2010, respectively. As a
way to reduce costs, management has initiated action to improve the efficiency of retail
customer service operations, which accounted for $9 billion5 of the Postal Service’s
$75.4 billion in operating expenses in FY 2010.

The Lakeland District initiated the DUO Program in 2008. The objective of the program
is to determine whether carriers from small delivery offices (less than 10 carrier routes)
can be relocated to nearby delivery offices that have sufficient excess floor space to
absorb these operations without changing existing services. The benefits derived from
the DUO Program include reduced labor and transportation costs resulting from
improved efficiency at fewer delivery offices. The DUO Program also provides
managers the opportunity to increase the use of part-time flexible employees. While the
Lakeland District’s DUO Program is ongoing, management stated they have eliminated
93 delivery offices and 133 clerk positions and realized approximately $5.5 million in
cost savings as of September 2010.

The Lakeland District manager has briefed headquarters and field executives regarding
the district’s DUO Program results. Lakeland District officials have also shared
information about the DUO Program with operations officials from other area and district
offices. Some field offices have replicated this initiative. For example, in FY 2010, the
Appalachian District consolidated operations at two delivery offices into one and
achieved $141,000 in cost savings.

From September through December 2010, Headquarters Delivery and Post Office
Operations imposed a moratorium on DUO implementations. They instructed field
officials not to initiate any new studies and to discontinue both the ongoing studies and
implementation of completed studies. The moratorium was issued to provide
headquarters officials the opportunity to consult stakeholders and develop guidelines for
standardized DUO implementation nationwide.

Headquarters issued DUO Guidelines, Version 1.1, in December 2010. The guidelines
establish standardized procedures to help administer the activities of the optimization
program without changing existing services. In a letter dated December 17, 2010, the
vice president, Labor Relations, provided the president, National Association of
Postmasters of the United States, with a copy of the approved guidelines and
communicated the Postal Service’s decision to proceed with nationwide implementation
of the DUO Program effective January 3, 2011. In December 2010, the Postal Service
and the American Postal Workers Union (APWU) agreed to a temporary moratorium on

5
 This amount includes $2.5 billion salary and benefits for labor distribution code (LDC) 80-Postmaster/Installation
Manager.


                                                           5
Retail Customer Service Operations Realignment                                                            MS-AR-11-002
 in the Hawkeye District


reassigning union members while negotiations on a new collective bargaining
agreement continue. The previous agreement expired in November 2010.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether the Postal Service can reduce retail customer
service costs by realigning delivery operations in the Hawkeye District.

To accomplish our objective we:

        Interviewed finance and operations programs support managers in the Lakeland
         District to obtain an understanding of their DUO Program (best practice location);

        Surveyed operations support programs managers nationwide to identify the
         districts that have implemented or plan to implement the DUO Program;

        Judgmentally selected the Hawkeye District to determine whether the DUO
         Program can be implemented there. We selected the Hawkeye District because it
         has over 400 delivery offices with less than 10 carrier routes per facility and
         officials have not implemented the DUO Program;

        Obtained data for all delivery and retail customer service operations facilities in
         the Hawkeye District from the manager of operations programs support. The
         manager generated the data from several sources including the local delivery
         offices data base, the web-based Complement Information System (webCOINS)6
         and Intelligent Mail and Address Quality (IMAQ) website;

        Analyzed delivery and retail customer service operations data to identify small
         delivery offices (less than 10 carrier routes) management can relocate to nearby
         delivery offices and identified nearby delivery offices that have sufficient excess
         floor space to absorb the small delivery offices;

        Judgmentally selected and visited three small delivery offices management can
         relocate and three delivery offices with sufficient excess floor space to absorb
         these operations to validate realignment opportunities identified from our
         analysis;

        Considered clerk craft scheme7 limitations at the delivery offices that have a
         decrease in mail volume. We concluded that the scheme limitation criteria
         provided by the Postal Service was over 30 years old and did not reflect current
         operations. Therefore, we were unable to include an analysis of craft scheme
         limitations.
6
  An application that holds employee and job information used by officials for complement planning, tracking, and
management.
7
  Scheme distribution is a systematic plan to move all classes of mail from originating office to destination office. ZIP
Code, ZIP+4 code, Delivery Point Sequence (DPS) code, and general schemes are used to distribute mail to proper
separations. A city scheme is an official published list of elements of address for the distribution of incoming mail.


                                                            6
Retail Customer Service Operations Realignment                                                         MS-AR-11-002
 in the Hawkeye District



        Calculated workhour savings and monetary impact outcomes that are achievable
         if the small delivery offices we identified for relocation are absorbed by nearby
         delivery offices with sufficient floor space to absorb their operations; and

        Discussed our audit results with the appropriate Headquarters Delivery and Post
         Office Operations, Western Area, and Hawkeye District management officials.

We conducted this performance audit from September 2010 through March 2011 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management officials on January 18 and March 3,
2011, and included their comments where appropriate.

We relied on data obtained from district officials and the eFLASH application.8 We did
not audit the eFLASH application, but we interviewed knowledgeable officials about the
data and performed reasonable tests to support our data reliance.

PRIOR AUDIT COVERAGE

We assessed the overall efficiency of retail customer service operations in the report
titled Efficiency of Retail Customer Service Operations (Report Number MS-AR-10-004,
dated July 28, 2010). Although management eliminated about 56 million retail customer
service workhours since FY 2006, they have not yet fully adjusted workhours in
response to changes in workload. The ratio of earned workhours (workhours supported
by workload) divided by actual workhours has remained unchanged at about 84 percent
since 2006.

We recommended that the Postal Service implement best practices for retail customer
service operations at all facilities and explore opportunities to consolidate business mail
acceptance operations at post offices, stations, and branches. We also recommended
that management periodically evaluate operating efficiency by assessing performance
against productivity targets and adjusting resources in response to workload changes.
Management agreed with our findings and recommendations.




8
 An application that combines data from delivery, mail processing, employee relations, labor relations, and finance.
The information is extracted from various host systems and located into eFLASH.


                                                          7
Retail Customer Service Operations Realignment                                                            MS-AR-11-002
 in the Hawkeye District


                                    APPENDIX B: DETAILED ANALYSIS

Opportunities Exist to Reduce Retail Customer Service Costs by Realigning
Delivery Operations

The Hawkeye District’s customer service mail volumes have declined by approximately
35.4 percent since 2007; however, its network of delivery facilities has declined only
4.3 percent. While management has consolidated some facilities to improve operational
efficiency and reduce retail customer service costs, they have not pursued these efforts
district-wide. For example, the Des Moines city operations combined the Morgan Street
Annex operations into the University Place Station (approximately 20 city routes) and
moved the Des Moines Metro Station into the Morgan Street location. According to the
manager, Operations Programs Support, both moves put the carriers closer to their
delivery areas.

The district is also in the process of consolidating the East Des Moines Finance Station
into the Main Office and the East Point retail unit into the East Side Carrier Annex.
District officials expect to reduce facility costs as a result of these two consolidations.
Finally, the manager, Operations Programs Support, stated that district officials will
continue with rural route consolidations.9 The district averages about 20–25 rural route
consolidations and 10–15 administrative changes a year, usually based on contractual
rural counts and vacated routes.

In addition to the completed and planned consolidations, management has performed
studies to identify further cost-savings opportunities. For example, officials have
completed two studies to determine the feasibility of consolidating four delivery offices
into two: the Hiawatha Post Office into the Cedar Rapids Northeast Station; and the
West Burlington Post Office into the Burlington Post Office. District officials have also
identified a list of delivery offices for potential relocations and are currently reviewing it
for implementation options.

Additional opportunities exist for the Hawkeye District to reduce retail customer service
costs by realigning delivery operations district-wide. There are 843 delivery offices
located in the Hawkeye District, 486 of which support delivery offices with fewer than
10 carrier routes each. We analyzed information from Postal Service databases and
identified 65 small delivery offices that management can relocate to nearby delivery
offices with sufficient excess floor space to absorb their operations. See Appendix C for
a list of these 65 offices.

We judgmentally selected three small delivery offices (with fewer than 10 carrier routes)
and three delivery offices with sufficient excess floor space to absorb these operations.
We visited these facilities to interview officials, observe operations, and validate the
information we obtained from Postal Service databases for our analysis. See Table 1 for
the field offices we visited.


9
    The combining of territories from two or more routes which results in the elimination of one or more of those routes.


                                                             8
Retail Customer Service Operations Realignment                                                        MS-AR-11-002
 in the Hawkeye District


                               Table 1: Field Offices Visited
                                                     Fewer Than 10                               Excess
                      Hawkeye District                                                        Floor Space
                                                         Routes
                                                                                                (square.
                  Name                       City, State          Carriers       Clerks           feet)
     1. Story City Post Office            Story City, IA               3             1
     2. Roland Post Office                Roland, IA                   1             010
     3. Colo Post Office                  Colo, IA                     1             0
     4. Ellsworth Post Office11           Ellsworth, IA                1             1              232
     5. Ames Main Office                  Ames, IA                                                 2,420
     6. Nevada Post Office                Nevada, IA                                                 974

Based on our site visits, we concluded that the Hawkeye District has excess capacity
and can reduce retail customer service costs by realigning delivery operations. For
example, the Ames Main Post Office has 2,420 square feet (SF) of excess floor space.
By rearranging the workroom floor, the Ames Main Post Office can accommodate 20
additional carrier routes.12 Also, once Carrier Sequence Bar Code Sorter (CSBCS)
machines are removed, the Ames Main Post Office will have an additional 1,600 SF of
floor space to accommodate additional carrier routes.13

        Illustration 1. Ames Main Post Office Excess Floor Space – Main Level




                  Source: OIG
10
   Some post offices can relocate routes but may not have any retail customer service clerks associated with the
routes. Mail is presently processed by either the postmaster or postmaster relief (PMR).
11
   We observed both the carrier operation and excess floor space.
12
   Postal Service policies and procedures require a minimum of 120 SF of floor space per carrier route.
Consequently, the excess 2,420 SF of floor space can accommodate 20 carrier routes.
13
   The Ames Post Office has four CSBCS machines it has not used to process mail since November 16, 2010.




                                                          9
Retail Customer Service Operations Realignment                        MS-AR-11-002
 in the Hawkeye District


        Illustration 1. Ames Main Post Office CSBCS Machines – Lower Level




               Source: OIG




                                                 10
  Retail Customer Service Operations Realignment                                                                                                    MS-AR-11-002
   in the Hawkeye District



                                    APPENDIX C: DELIVERY OFFICES THAT CAN BE RELOCATED

  There are 843 delivery offices in the Hawkeye District, 486 of which support fewer than 10 carrier routes. Management
  can relocate 65 small delivery offices to nearby offices with sufficient excess floor space to absorb their operations.

  This initiative would relocate 215 carrier routes and provide management the opportunity to eliminate 94 clerk positions
  that support carriers at the relocated facilities. The table below provides details regarding the 65 small delivery offices that
  can be relocated along with nearby delivery offices with sufficient excess floor space to absorb their operations.

                                                                       Total




                                                                                                                                                                              Excess Office Space
                                                                                                    Delivery Offices That Have




                                                                                                                                                                   Distance




                                                                                                                                                                                    (Sq Ft
                                                                                                                                                                    Miles
                                                                        CARRIERS
         Delivery Offices That                      Zip                                               Sufficient Excess Floor                            Zip




                                                          ROUTES




                                                                                       CLERKS
Count                               City/State                                                                                         City/State
          Can Be Relocated                         Code                                             Space To Absorb The Small                           Code
                                                                                                         Delivery Offices




   1    ADAIR MAIN OFFICE        ADAIR, IA       50002             1               2            1   CASEY MAIN OFFICE            CASEY, IA             50048          6.5               486


   2    ALDEN MAIN OFFICE        ALDEN, IA       50006             2               4            1   IOWA FALLS MAIN OFFICE       IOWA FALLS, IA        50126          5.8               917


        AUDUBON MAIN
   3                             AUDUBON, IA     50025             5               7            2   EXIRA MAIN POST OFFICE       EXIRA, IA             50076          9.4               782
        OFFICE

        BONDURANT POST                                                                              EAST SIDE CARRIER
   4                             BONDURANT, IA   50035             3               5            1                                DES MOINES, IA        50313          8.5       2,617
        OFFICE                                                                                      ANNEX

        CARLISLE MAIN POST                                                                          SOUTH DES MOINES POST
   5                             CARLISLE, IA    50047             4               8            1                                DES MOINES, IA        50315             7      2,234
        OFFICE                                                                                      OFFICE


   6    COLFAX MAIN OFFICE       COLFAX, IA      50054             6               5            1   NEWTON MAIN OFFICE           NEWTON, IA            50208           10       8,246


   7    EARLHAM MAIN OFFICE      EARLHAM, IA     50072             2               4            1   DEXTER MAIN OFFICE           DEXTER, IA            50070          5.7               396




                                                                                        11
  Retail Customer Service Operations Realignment                                                                                                   MS-AR-11-002
   in the Hawkeye District


                                                                       Total




                                                                                                                                                                             Excess Office Space
                                                                                                    Delivery Offices That Have




                                                                                                                                                                  Distance




                                                                                                                                                                                   (Sq Ft
                                                                                                                                                                   Miles
                                                                        CARRIERS
         Delivery Offices That                      Zip                                               Sufficient Excess Floor                           Zip




                                                          ROUTES




                                                                                       CLERKS
Count                               City/State                                                                                        City/State
          Can Be Relocated                         Code                                             Space To Absorb The Small                          Code
                                                                                                         Delivery Offices




   8    ELLSWORTH MAIN
                                 ELLSWORTH, IA   50075             1               2            1   RADCLIFFE MAIN OFFICE        RADCLIFFE, IA        50230          7.4               459
        OFFICE

                                                                                                    EAST SIDE CARRIER
                                                                                                                                 DES MOINES, IA       50313          9.5       2,617
                                                                                                    ANNEX

   9                                                                                                UNIVERSITY POST OFFICE
        GRIMES MAIN OFFICE       GRIMES, IA      50111             5               8            2                                DES MOINES, IA       50311          7.7       5,941
                                                                                                    STATION

                                                                                                    URBANDALE CARRIER
                                                                                                                                 URBANDALE, IA        50322          3.4       1,235
                                                                                                    ANNEX

   10
        KELLOGG MAIN OFFICE      KELLOGG, IA     50135             2               2            1   NEWTON MAIN OFFICE           NEWTON, IA           50208          7.6       8,246


                                                                                                    DEEP RIVER MAIN OFFICE       DEEP RIVER, IA       52222             8              249


   11   MONTEZUMA MAIN
                                 MONTEZUMA, IA   50171             2               4            2   MALCOM MAIN OFFICE           MALCOM, IA           50157          8.6               279
        OFFICE


                                                                                                    SEARSBORO MAIN OFFICE        SEARSBORO, IA        50242          9.2               304


   12
        NEVADA MAIN OFFICE       NEVADA, IA      50201             7               9            2   AMES MAIN OFFICE             AMES, IA             50010          8.2       2,420


                                                                                                    SOUTH DES MOINES POST
                                                                                                                                 DES MOINES, IA       50315          5.3       2,234
                                                                                                    OFFICE
   13   NORWALK MAIN
                                 NORWALK, IA     50211             8        12                  1
        OFFICE
                                                                                                    UNIVERSITY POST OFFICE
                                                                                                                                 DES MOINES, IA       50311          8.5       5,941
                                                                                                    STATION

   14   POLK CITY MAIN                                                                              URBANDALE CARRIER
                                 POLK CITY, IA   50226             3               4            1                                URBANDALE, IA        50322          9.9       1,235
        OFFICE                                                                                      ANNEX




                                                                                        12
  Retail Customer Service Operations Realignment                                                                                                   MS-AR-11-002
   in the Hawkeye District


                                                                       Total




                                                                                                                                                                             Excess Office Space
                                                                                                    Delivery Offices That Have




                                                                                                                                                                  Distance




                                                                                                                                                                                   (Sq Ft
                                                                                                                                                                   Miles
                                                                        CARRIERS
         Delivery Offices That                      Zip                                               Sufficient Excess Floor                           Zip




                                                          ROUTES




                                                                                       CLERKS
Count                               City/State                                                                                        City/State
          Can Be Relocated                         Code                                             Space To Absorb The Small                          Code
                                                                                                         Delivery Offices




   15
        SLATER MAIN OFFICE       SLATER, IA       50244            1               2            1   HUXLEY MAIN OFFICE           HUXLEY, IA           50124          4.3               197


   16                                                                                               URBANDALE CARRIER
        WAUKEE MAIN OFFICE       WAUKEE, IA       50263            8        16                  4                                URBANDALE, IA        50322          6.1       1,235
                                                                                                    ANNEX

                                                                                                    EAST SIDE CARRIER
                                                                                                                                 DES MOINES, IA       50313          8.2       2,617
                                                                                                    ANNEX

                                                                                                    SOUTH DES MOINES POST
                                                                                                                                 DES MOINES, IA       50315          9.6       2,234
                                                                                                    OFFICE
   17
        ASH CREEK RETAIL         URBANDALE, IA    50323            7               9            2
                                                                                                    UNIVERSITY POST OFFICE
                                                                                                                                 DES MOINES, IA       50311          5.7       5,941
                                                                                                    STATION

                                                                                                    URBANDALE CARRIER
                                                                                                                                 URBANDALE, IA        50322          1.6       1,235
                                                                                                    ANNEX

   18   CLEAR LAKE MAIN
                                 CLEAR LAKE, IA   50428            9               6            3   MASON CITY MAIN OFFICE       MASON CITY, IA       50401          9.3       3,624
        OFFICE


                                                                                                    BETTENDORF MAIN OFFICE       BETTENDORF, IA       52722          4.1       1,234
   19   HAMPTON MAIN
                                 HAMPTON, IA      50441            7               7            2
        OFFICE
                                                                                                    MOLINE MAIN OFFICE           MOLINE, IL           61265          6.6       1,156


   20   ARMSTRONG MAIN
                                 ARMSTRONG, IA    50514            2               4            1   SWEA CITY MAIN OFFICE        SWEA CITY, IA        50590          8.7               850
        OFFICE


                                                                                                    LAKOTA MAIN OFFICE           LAKOTA, IA           50451          8.5               297
   21   BANCROFT MAIN
                                 BANCROFT, IA     50517            1               2            1
        OFFICE
                                                                                                    SWEA CITY MAIN OFFICE        SWEA CITY, IA        50590          7.8               850




                                                                                        13
  Retail Customer Service Operations Realignment                                                                                                    MS-AR-11-002
   in the Hawkeye District


                                                                       Total




                                                                                                                                                                              Excess Office Space
                                                                                                    Delivery Offices That Have




                                                                                                                                                                   Distance




                                                                                                                                                                                    (Sq Ft
                                                                                                                                                                    Miles
                                                                        CARRIERS
         Delivery Offices That                      Zip                                               Sufficient Excess Floor                            Zip




                                                          ROUTES




                                                                                       CLERKS
Count                               City/State                                                                                        City/State
          Can Be Relocated                         Code                                             Space To Absorb The Small                           Code
                                                                                                         Delivery Offices




   22
        GOWRIE MAIN OFFICE       GOWRIE, IA       50543            2               4            1   PATON MAIN OFFICE            PATON, IA             50217          8.2               459


   23
        MANSON POST OFFICE       MANSON, IA       50563            2               4            2   POMEROY MAIN OFFICE          POMEROY, IA           50575          7.8               777


                                                                                                    MARATHON POST OFFICE         MARATHON, IA          50565          8.8               286
   24   SIOUX RAPIDS MAIN        SIOUX RAPIDS,
                                                  50585            1               2            1
        OFFICE                   IA
                                                                                                    REMBRANDT MAIN OFFICE        REMBRANDT, IA         50576          4.7               442


                                                                                                    HAZLETON MAIN OFFICE         HAZLETON, IA          50641          7.4               794
   25   FAIRBANK MAIN POST
                                 FAIRBANK, IA     50629            2               4            1
        OFFICE
                                                                                                    OELWEIN MAIN OFFICE          OELWEIN, IA           50662          7.4               703


                                                                                                    DENVER MAIN POST
                                                                                                                                 DENVER, IA            50622          6.6               405
                                                                                                    OFFICE

   26   JANESVILLE POST                                                                             NEW HARTFORD MAIN
                                 JANESVILLE, IA   50647            1               2            1                                NEW HARTFORD, IA      50660          9.8               368
        OFFICE                                                                                      OFFICE


                                                                                                    WAVERLY MAIN OFFICE          WAVERLY, IA           50677          5.5               608


   27                                                                                               INDEPENDENCE MAIN
        JESUP MAIN OFFICE        JESUP, IA        50648            2               4            1                                INDEPENDENCE, IA      50644          8.6               497
                                                                                                    OFFICE

   28   WINTHROP MAIN                                                                               INDEPENDENCE MAIN
                                 WINTHROP, IA     50682            2               4            1                                INDEPENDENCE, IA      50644          8.1               497
        OFFICE                                                                                      OFFICE

   29   BEDFORD MAIN
                                 BEDFORD, IA      50833            5               6            2   HOPKINS MAIN OFFICE          HOPKINS, MP           64461          9.6               666
        OFFICE




                                                                                        14
  Retail Customer Service Operations Realignment                                                                                                    MS-AR-11-002
   in the Hawkeye District


                                                                       Total




                                                                                                                                                                              Excess Office Space
                                                                                                    Delivery Offices That Have




                                                                                                                                                                   Distance




                                                                                                                                                                                    (Sq Ft
                                                                                                                                                                    Miles
                                                                        CARRIERS
         Delivery Offices That                      Zip                                               Sufficient Excess Floor                            Zip




                                                          ROUTES




                                                                                       CLERKS
Count                               City/State                                                                                         City/State
          Can Be Relocated                         Code                                             Space To Absorb The Small                           Code
                                                                                                         Delivery Offices




   30
        MOVILLE MAIN OFFICE      MOVILLE, IA      51039            2               4            1   LAWTON MAIN OFFICE           LAWTON, IA            51030          5.7               437


   31
        PAULLINA MAIN OFFICE     PAULLINA, IA     51046            2               3            1   PRIMGHAR MAIN OFFICE         PRIMGHAR, IA          51245          7.7               954


   32
        SHELDON MAIN OFFICE      SHELDON, IA      51201            6        10                  4   MATLOCK POST OFFICE          MATLOCK, IA           51244             6              774


   33
        GLIDDEN MAIN OFFICE      GLIDDEN, IA      51443            1               0            1   SCRANTON MAIN OFFICE         SCRANTON, IA          51462          9.7               354


   34   LAKE VIEW MAIN
                                 LAKE VIEW, IA    51450            2               4            2   SAC CITY MAIN OFFICE         SAC CITY, IA          50583          8.6               368
        OFFICE

   35
        CASCADE MAIN OFFICE      CASCADE, IA      52033            2               2            1   MONTICELLO MAIN OFFICE       MONTICELLO, IA        52310          9.8       1,255


   36   DYERSVILLE MAIN
                                 DYERSVILLE, IA   52040            6               7            3   NEW VIENNA MAIN OFFICE       NEW VIENNA, IA        52065          4.5       1,298
        OFFICE

   37
        PRESTON MAIN OFFICE      PRESTON, IA      52069            1               2            1   CHARLOTTE MAIN OFFICE        CHARLOTTE, IA         52731          7.5               506


   38
        LANSING MAIN OFFICE      LANSING, IA      52151            1               2            1   FERRYVILLE POST OFFICE       FERRYVILLE, WI        54628          6.1               452


   39   MC GREGOR MAIN                                                                              MARQUETTE MAIN POST
                                 MC GREGOR, IA    52157            1               2            1                                MARQUETTE, IA         52158          4.5               195
        OFFICE                                                                                      OFFICE

   40   OSSIAN MAIN POST
                                 OSSIAN, IA       52161            1               2            1   CASTALIA POST OFFICE         CASTALIA, IA          52133          5.1               165
        OFFICE

   41   POSTVILLE MAIN
                                 POSTVILLE, IA    52162            1               2            2   CASTALIA POST OFFICE         CASTALIA, IA          52133          5.6               165
        OFFICE




                                                                                        15
  Retail Customer Service Operations Realignment                                                                                                    MS-AR-11-002
   in the Hawkeye District


                                                                       Total




                                                                                                                                                                              Excess Office Space
                                                                                                    Delivery Offices That Have




                                                                                                                                                                   Distance




                                                                                                                                                                                    (Sq Ft
                                                                                                                                                                    Miles
                                                                        CARRIERS
         Delivery Offices That                      Zip                                               Sufficient Excess Floor                            Zip




                                                          ROUTES




                                                                                       CLERKS
Count                               City/State                                                                                         City/State
          Can Be Relocated                         Code                                             Space To Absorb The Small                           Code
                                                                                                         Delivery Offices




                                                                                                    ELGIN MAIN OFFICE            ELGIN, IA             52141          9.3               421


                                                                                                    MONONA MAIN OFFICE           MONONA, IA            52159          9.3       1,110


                                                                                                    ELGIN MAIN OFFICE            ELGIN, IA             52141          9.1               421
   42   WEST UNION MAIN
                                 WEST UNION, IA   52175            3               4            2
        OFFICE
                                                                                                    FAYETTE MAIN OFFICE          FAYETTE, IA           52142          8.2       1,057


   43   BELLE PLAINE MAIN        BELLE PLAINE,
                                                  52208            6               7            1   CHELSEA MAIN OFFICE          CHELSEA, IA           52215             6              727
        OFFICE                   IA

   44   CENTER POINT MAIN        CENTER POINT,
                                                  52213            3               6            1   PALO MAIN POST OFFICE        PALO, IA              52324          8.6               453
        POST OFFICE              IA

   45   CENTRAL CITY MAIN        CENTRAL CITY,
                                                  52214            3               6            1   COGGON MAIN OFFICE           COGGON, IA            52218          5.4               757
        OFFICE                   IA

                                                                                                    CEDAR RAPIDS MAIN
                                                                                                                                 CEDAR RAPIDS, IA      52404          5.2       3,049
                                                                                                    OFFICE
   46
        FAIRFAX MAIN OFFICE      FAIRFAX, IA      52228            2               4            1
                                                                                                    WEST STATION                 CEDAR RAPIDS, IA      52404             4      3,049


   47
        KALONA MAIN OFFICE       KALONA, IA       52247            4               6            2   WELLMAN MAIN OFFICE          WELLMAN, IA           52356             7              534


        OXFORD MAIN POST
   48                            OXFORD, IA       52322            2               3            1   TIFFIN MAIN OFFICE           TIFFIN, IA            52340          6.8               691
        OFFICE

   49                                                                                               MOUNT VERNON MAIN
        SOLON MAIN OFFICE        SOLON, IA        52333            4               8            1                                MOUNT VERNON, IA      52314          9.3               525
                                                                                                    OFFICE




                                                                                        16
  Retail Customer Service Operations Realignment                                                                                                    MS-AR-11-002
   in the Hawkeye District


                                                                       Total




                                                                                                                                                                              Excess Office Space
                                                                                                    Delivery Offices That Have




                                                                                                                                                                   Distance




                                                                                                                                                                                    (Sq Ft
                                                                                                                                                                    Miles
                                                                        CARRIERS
         Delivery Offices That                      Zip                                               Sufficient Excess Floor                            Zip




                                                          ROUTES




                                                                                       CLERKS
Count                               City/State                                                                                         City/State
          Can Be Relocated                         Code                                             Space To Absorb The Small                           Code
                                                                                                         Delivery Offices




                                                                                                    CEDAR RAPIDS MAIN
                                                                                                                                 CEDAR RAPIDS, IA      52404          6.9       3,049
                                                                                                    OFFICE

   50
        SWISHER MAIN OFFICE      SWISHER, IA      52338            2               4            1   TIFFIN MAIN OFFICE           TIFFIN, IA            52340          9.9               691


                                                                                                    WEST STATION                 CEDAR RAPIDS, IA      52404          7.9       3,049


   51
        TOLEDO MAIN OFFICE       TOLEDO, IA       52342            4               4            1   GARWIN MAIN OFFICE           GARWIN, IA            50632          8.3       1,120


                                                                                                    BONAPARTE MAIN OFFICE        BONAPARTE, IA         52620          8.9               350


   52   KEOSAUQUA MAIN                                                                              CANTRIL MAIN POST
                                 KEOSAUQUA, IA    52565            2               4            1                                CANTRIL, IA           52542             8              372
        OFFICE                                                                                      OFFICE


                                                                                                    DOUDS MAIN POST OFFICE       DOUDS, IA             52551           10               514


   53   DONNELLSON MAIN          DONNELLSON,
                                                  52625            2               3            1   PILOT GROVE MAIN OFFICE      PILOT GROVE, IA       52648          8.6               644
        OFFICE                   IA

                                                                                                    FORT MADISON MAIN
                                                                                                                                 FORT MADISON, IA      52627          9.4       4,150
                                                                                                    OFFICE
   54   WEST POINT MAIN
                                 WEST POINT, IA   52656            2               4            1
        OFFICE
                                                                                                    PILOT GROVE MAIN OFFICE      PILOT GROVE, IA       52648          5.4               644


   55   BLUE GRASS MAIN                                                                             ROCK ISLAND POST
                                 BLUE GRASS, IA   52726            3               6            1                                ROCK ISLAND, IL       61201          9.3       3,358
        OFFICE                                                                                      OFFICE

   56   CAMANCHE MAIN
                                 CAMANCHE, IA     52730            4               6            1   CLINTON MAIN OFFICE          CLINTON, IA           52732          5.3       3,550
        OFFICE




                                                                                        17
  Retail Customer Service Operations Realignment                                                                                                     MS-AR-11-002
   in the Hawkeye District


                                                                        Total




                                                                                                                                                                               Excess Office Space
                                                                                                     Delivery Offices That Have




                                                                                                                                                                    Distance




                                                                                                                                                                                     (Sq Ft
                                                                                                                                                                     Miles
                                                                         CARRIERS
         Delivery Offices That                       Zip                                               Sufficient Excess Floor                            Zip




                                                           ROUTES




                                                                                        CLERKS
Count                               City/State                                                                                         City/State
          Can Be Relocated                          Code                                             Space To Absorb The Small                           Code
                                                                                                          Delivery Offices




   57   ELDRIDGE MAIN
                                 ELDRIDGE, IA      52748            8               9            2   BETTENDORF MAIN OFFICE       BETTENDORF, IA        52722             8      1,234
        OFFICE

   58   LE CLAIRE POST
                                 LE CLAIRE, IA     52753            3               6            1   BETTENDORF MAIN OFFICE       BETTENDORF, IA        52722          7.4       1,234
        OFFICE

   59   WALCOTT MAIN POST
                                 WALCOTT, IA       52773            1               2            1   DONAHUE MAIN OFFICE          DONAHUE, IA           52746          9.3               509
        OFFICE


                                                                                                     BETTENDORF MAIN OFFICE       BETTENDORF, IA        52722          9.5       1,234


   60   COAL VALLEY MAIN
                                 COAL VALLEY, IL   61240            4               7            2   MOLINE MAIN OFFICE           MOLINE, IL            61265             6      1,156
        OFFICE

                                                                                                     ROCK ISLAND POST
                                                                                                                                  ROCK ISLAND, IL       61201          7.4       3,358
                                                                                                     OFFICE


                                                                                                     BETTENDORF MAIN OFFICE       BETTENDORF, IA        52722          9.3       1,234
   61
        COLONA MAIN OFFICE       COLONA, IL        61241            4               6            2
                                                                                                     MOLINE MAIN OFFICE           MOLINE, IL            61265          8.5       1,156


   62                                                                                                PROPHETSTOWN MAIN
        ERIE MAIN OFFICE         ERIE, IL          61250            1               2            1                                PROPHETSTOWN, IL      61277          7.5               918
                                                                                                     OFFICE

   63
        FULTON MAIN OFFICE       FULTON, IL        61252            5               8            2   CLINTON MAIN OFFICE          CLINTON, IA           52732             2      3,550


                                                                                                     BETTENDORF MAIN OFFICE       BETTENDORF, IA        52722             9      1,234
   64
        MILAN MAIN OFFICE        MILAN, IL         61264            9        12                  3
                                                                                                     MOLINE MAIN OFFICE           MOLINE, IL            61265          4.7       1,156




                                                                                         18
  Retail Customer Service Operations Realignment                                                                                                    MS-AR-11-002
   in the Hawkeye District


                                                                        Total




                                                                                                                                                                              Excess Office Space
                                                                                                     Delivery Offices That Have




                                                                                                                                                                   Distance




                                                                                                                                                                                    (Sq Ft
                                                                                                                                                                    Miles
                                                                         CARRIERS
          Delivery Offices That                      Zip                                               Sufficient Excess Floor                           Zip




                                                           ROUTES




                                                                                        CLERKS
Count                                 City/State                                                                                       City/State
           Can Be Relocated                         Code                                             Space To Absorb The Small                          Code
                                                                                                          Delivery Offices




                                                                                                     ROCK ISLAND POST
                                                                                                                                  ROCK ISLAND, IL      61201          2.3       3,358
                                                                                                     OFFICE


                                                                                                     BETTENDORF MAIN OFFICE       BETTENDORF, IA       52722          5.2       1,234


   65
         SILVIS MAIN OFFICE       SILVIS, IL       61282            5               7            2   MOLINE MAIN OFFICE           MOLINE, IL           61265          5.1       1,156


                                                                                                     ROCK ISLAND POST
                                                                                                                                  ROCK ISLAND, IL      61201          8.9       3,358
                                                                                                     OFFICE

TOTALS                                                     215           326               94




                                                                                         19
Retail Customer Service Operations Realignment                                                       MS-AR-11-002
 in the Hawkeye District



                                 APPENDIX D: MONETARY IMPACT

To compute the potential workhour savings and monetary impact, we obtained a
universe of delivery offices in the Hawkeye District along with clerk and carrier
complement from the manager of operations programs support. The manager
generated this data from several sources including the local delivery offices data base,
webCOINS and IMAQ website.

The universe consisted of 843 delivery offices, 486 of which support fewer than 10
carrier routes each. We analyzed the delivery offices data to identify small delivery
offices (fewer than 10 carrier routes) that could be relocated to nearby delivery offices.
We also identified the nearby delivery offices that have sufficient excess floor space to
absorb these operations.

Based on our analysis, we determined that management can relocate 13.4 percent (65
of 486) of the small delivery offices (fewer than 10 carrier routes) to nearby delivery
offices.

This initiative would relocate 215 carrier routes and provide management the
opportunity to eliminate 94 clerk positions that support carriers at the relocated facilities.
Management can eliminate the clerk positions through attrition or use the affected
employees to fill job vacancies at other facilities. As of December 2010, the Hawkeye
District had approximately 800 retail customer service operations employees on board,
225 who are currently eligible to retire and 482 who will be eligible to retire by the end
2015. At a 5 percent attrition rate14, we estimated that approximately 40 employees
would separate from the Hawkeye District each year. In addition, as of November 2010,
the district had 354 vacancies at other facilities, most of which were carrier and mail
processing clerk positions.

We estimated that the proposed realignment would allow the Hawkeye District to reduce
retail customer service workhours by 78,502 annually and achieve cost savings of at
least $25.8 million over the next 10 years.




14
  GAO-10-455, U. S. Postal Service: Strategies and Options to Facilitate Progress toward Financial Viability, pages
15-17, April 2010 addresses the Postal Service’s attrition rate. 


                                                         20
Retail Customer Service Operations Realignment                                                                                                      MS-AR-11-002
 in the Hawkeye District

                                                                                                   15
                                                                      FUNDS PUT TO BETTER USE
      Years              1                 2            3             4               5              6               7               8               9              10
                        2011             2012          2013         2014            2015            2016            2017           2018            2019            2020
Number of clerk
positions to                    0               94            94           94              94                94            94             94              94              94
eliminate
Total clerk
workhours to              78,502           78,502       78,502        78,502           78,502            78,502       78,502          78,502         78,502          78,502
           16
eliminate
Potential
workhour              $3,389,485        $3,447,106   $3,505,707    $3,565,304      $3,625,914      $3,687,555     $3,750,243      $3,813.997     $3,878,835      $3,944,775
          17
savings
Adoption
       18                 0.00%            50.00%      100.00%       100.00%         100.00%            100.00%     100.00%         100.00%         100.00%        100.00%
factor
Estimated
workhour
savings for                    $0       $1,723,553   $3,505,707    $3,565,304      $3,625,914      $3,687,555     $3,750,243      $3,813,997     $3,878,835      $3,944,775
eliminating 94
                19
clerk positions

Discounted
          20                   $0       $1,659,257   $3,249,029    $3,180,998      $3,114,393      $3,049,182     $2,985,336      $2,922,827     $2,861,627      $2,801,709
Cash Flow

Total Net                          22
              21     $25,824,357
Present Value




15
   Funds that could be used efficiently by implementing recommended actions.
16
   FY 2010 actual workhours for labor codes 43, 47, and 48.
17
   FY 2010 actual salaries and benefits for labor distribution codes 43, 47, and 48 escalated by 1.7 percent to account for increases.
18
   The adoption factor is used to take into account the length of time it will take to remove names from the Postal Service’s rolls. Because not everyone retires in January,
the savings have to be phased-in over the course of the year. Assuming a constant rate of attrition (i.e., people leave the Postal Service at a steady rate), half the annual
savings can be achieved in the first year, with the full savings coming the following year and every year after that.
19
   To calculate the estimated workhour savings for the 94 positions, we multiplied the potential workhour savings by the adoption rate.
20
   We used a discount rate of 3.875 percent to discount each year’s dollars in 2011 dollars. This discounted cash flow was summed up to get the total net present value
of $25,824,357. The discount rate is the Postal Service’s estimated cost of borrowing. Applying the rate to a future sum gives a value to how much money invested now
would be worth in the future.
21
   We summed the discounted cash flow to get the total net present value.
22
   The sum of the cash flow amounts does not equal the total net present value due to rounding.


                                                                                     21
Retail Customer Service Operations Realignment             MS-AR-11-002
 in the Hawkeye District



                       APPENDIX E: MANAGEMENT’S COMMENTS




                                                 22
